CASE No.

In The Supreme Court of the United States

POPPI METAXAS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari
to the
United States Court of Appeals
for the Second Circuit
APPENDIX TO PETITION FOR
WRIT OF CERTIORARI
Brandon Sample
Brandon Sample PLC
P.O. BOX 250
Rutland, Vermont 05702
Tel: 802-444-4357
Fax: 802-779-9590
Email: Brandon@brandonsample.com
Counsel for Petitioner

I. TABLE OF
CONTENTS

APPENDIX A ............................................... 1A
(March 26, 2020, Order Denying 28 U.S.C. §
2255 Motion)
APPENDIX B ............................................. 27A
(September 17, 2020, Order Denying
Certificate of Appealability)

1A
APPENDIX A
United States v. Metaxas
United States District Court for the Eastern
District of New York
March 26, 2020, Decided; March 26, 2020, Filed
14-cr-0190 (BMC); 17-cv-2708 (BMC)
MEMORANDUM DECISION AND ORDER
COGAN, District Judge.
Defendant's motion for habeas corpus relief under
28 U.S.C. § 2255 is based on the alleged
ineffectiveness of her counsel in recommending
that she accept the Government's plea offer.
Defendant's essential contention is that her
counsel did not understand a specific decision of
the Second Circuit, United States v. Rodriguez,
140 F.3d 163 (2d Cir. 1998), abrogated by, Shaw v.
United States, 137 S. Ct. 462, 196 L. Ed. 2d 372
(2016), and that this decision would have
constituted a complete defense to two of the three
charges against her. Defendant also contends that
her counsel never discussed the issue in Rodriguez
with her so that she did not know of this defense.
Her guilty plea, she submits, was therefore not
knowing and voluntary.
Having conducted a hearing on the motion at
which both defendant and her prior counsel
testified, I reject both of her arguments. Prior
defense counsel was thoroughly familiar with the
law, including Rodriquez, and correctly presented
and discussed the issue with defendant before she

2A
agreed to plead guilty. The motion is therefore
denied.
BACKGROUND
Defendant is the former president and chief
executive officer of Gateway Bank, a bank the
primary business of which was warehouse lending,
i.e., financing to retail mortgage lenders. She also
served on its Board of Directors. The Office of
Thrift Supervision ("OTS"), then an agency of the
United States Department of the Treasury and
Gateway's regulator,1 became concerned about the
volume of non-performing loans and real estate
assets, which it described as "toxic assets," on
Gateway's books. Gateway was carrying these
assets at a $16 million valuation, a lot more than
OTS thought they were worth. OTS advised
Gateway's Board that Gateway was exposed to a
cease-and-desist order, which would have been, at
least, bad for business, if Gateway did not increase
its capital and reduce its toxic assets by the end of
__________________
1
In 2010, Congress abolished OTS and the
agency's regulatory authorities and functions were
transferred to the Office of the Comptroller of the
Currency, the Federal Deposit Insurance
Corporation, the Board of Governors of the Federal
Reserve System, and the Consumer Financial
Protection Bureau. See Dodd-Frank Wall Street
Reform and Consumer Protection Act ("DoddFrank"), Pub. L. No. 111-203 (2010).

3A
March 2009. Gateway then began looking for
buyers of these non-performing assets.
In February and March 2009, defendant
engineered a series of transactions designed to
make it seem like Gateway had sold its toxic assets
for nearly the value at which Gateway was
carrying them. First, Gateway made a $3.64
million loan to Ideal Mortgage Bankers, Ltd. (a/k/a
Lend America), Gateway's largest warehouse
lending client. Ideal then lent $3.64 million to
three other corporations (the "Ashley affiliates")
owned by associates of Ideal's de facto principle,
Michael Ashley, via promissory notes providing for
6 percent interest over five years. Simultaneously
or nearly simultaneously, the Ashley affiliates
entered into an agreement with Gateway to
purchase the toxic assets from Gateway for $15.3
million. The terms of the asset purchase
agreement required the Ashley affiliates to pay to
Gateway 25% of the purchase price as a downpayment on closing and the remainder over time.
Thus, the day after Gateway's loan to Ideal, the
Ashley affiliates made a $3.85 million down
payment (25% of the purchase price) to Gateway,
slightly more than they had borrowed from Ideal
and that Ideal had borrowed from Gateway.
Gateway did not transfer title to the assets at
closing, holding the assets as security for the
remainder of the $15.3 million purchase price.
After the closing, the Ashley affiliates paid about
$468,752 to Gateway, and almost immediately

4A
thereafter, the purported asset purchase
collapsed. The Ashley affiliates failed to pay
anything further on the purchase price, and Ideal
paid $164,542 on its loan from Gateway before it
defaulted, after it was sued for abusive lending
practices unrelated to Gateway. Gateway was
ultimately able to collect a further $1,809.970 via
seizure of funds in Ideal accounts that it was
holding.
Gateway re-sold the toxic assets and kept the
proceeds of the sale, in addition to the payments
previously made by the purchasing corporations
and the offset Ideal accounts, for a total of
$6,586,649. At the time of the "round-trip"
transaction, Gateway had received one offer to
purchase the troubled assets for $5 million.
When defendant was deposed by the OTS, she
testified that she did not know the source of the
Ashley affiliates' down payment to Gateway. She
maintained that the transactions were made at
arm's length. Specifically, she was asked if she
knew that the 25% down-payment for the toxic
assets came from Ideal via Gateway. She
answered, "No, sir. ... [O]ne of the things we did
not do is verify source of down-payment." That
was, at best, less than a half-truth. It was true that
Gateway did not verify the source of the downpayment, but that was because defendant already
knew the source of the down-payment — the loan
to Ideal — and did not disclose to the Board or OTS

5A
that Gateway was effectively paying itself the
down-payment.
In fact, defendant had altered Board minutes to
make it appear that she had disclosed the
particulars of the Ideal loan to Gateway's Board
when in fact she had not. The original minutes,
prepared from an audio recording of a Board
meeting, made no reference to a loan to Ideal.
Defendant added a paragraph to the minutes
representing that the Board had discussed the
loan to Ideal and was favorably disposed to it.
When the Board found out about the round-trip
transactions, it suspended defendant without pay,
and she resigned.
On March 31, 2014, the Government indicted
defendant on three counts: (1) conspiracy to
commit bank fraud against Gateway, 18 U.S.C. §§
371, 3551; (2) bank fraud against Gateway, 18
U.S.C. §§ 1344(2), 3551; and (3) perjury in her
testimony before the OTS concerning her
knowledge of where the Ashley affiliates had
obtained the funds for the down-payment on the
toxic assets, 18 U.S.C. §§ 1621(1), 3551.
At all relevant times, defendant was represented
by a team of lawyers from Cooley LLP, among
them Laura Birger. Among many other activities,
defendant's lawyers moved to dismiss Count Three
of the indictment on the ground that the question
that OTS had asked defendant at her deposition
was ambiguous, and her answer was therefore not

6A
perjurious. Judge Bianco, to whom this case was
originally assigned, denied the motion, and the
case was set down for trial.
On April 30, 2015, about one month before trial
was set to commence and on the last day upon
which defendant could have accepted the
Government's plea offer, defendant accepted the
plea offer. Under the plea agreement, she pled only
to Count One, the bank fraud conspiracy. In her
plea allocution, defendant admitted agreeing with
others "to make Gateway's books look more
acceptable to the regulators." She allocuted to
knowing that the Ashley affiliates had received the
Ideal loan proceeds and used them to make the
down-payment to Gateway for the toxic assets, and
that she did not provide "complete information" to
Gateway's Board prior to its approving the loan to
Ideal and the purported purchase of the toxic
assets.
The plea agreement had calculated defendant's
Guidelines' range as 37-46 months. The
Presentence Investigation Report, however,
calculated the Guidelines as 108-135 months. The
Government advocated for the former at
sentencing, and Judge Bianco sentenced
defendant to a below-Guidelines sentence of 18
months' custody and 3 years' supervised release.
In her habeas corpus motion, defendant contends
that Rodriquez requires that a defendant intend to
expose the bank to loss. She asserts that she never
intended to expose Gateway. She further asserts

7A
that Gateway was never at a risk of a potential loss
as a result of the round-trip transactions and
never sustained an actual loss. Rather, the roundtrip transaction was carefully structured to
prevent not only actual loss but potential loss to
Gateway.
This was achieved, according to defendant, first,
by requiring that more than the amount of money
that Gateway loaned to Ideal would be roundtripped through the Ashley affiliates as a down
payment; and, second, by leaving title to the toxic
assets with Gateway unless and until it was fully
paid the $15 million purchase price. Because of
this structure, defendant had a complete defense
to the conspiracy and bank fraud charges. Cooley
was therefore ineffective for advising her to plead
guilty instead of either seeking dismissal of the
bank fraud charge or taking that claim to trial and
prevailing as a matter of law, and in not advising
her of the complete defense to the charge. Had it
so advised her, she asserts that she would not have
pled guilty.
DISCUSSION
I. Habeas Corpus Principles
"Section 2255 provides that a prisoner sentenced
by a federal court may move to have that sentence
vacated, set aside or corrected if he or she claims
that the court, in sentencing ... her, violated the
Constitution or the laws of the United States,

8A
improperly exercised jurisdiction, or sentenced
him or her beyond the maximum time authorized
by law." Thai v. United States, 391 F.3d 491, 493
(2d Cir. 2004). However, "[b]ecause collateral
challenges are in tension with society's strong
interest in the finality of criminal convictions, the
courts have established rules that make it more
difficult for a defendant to upset a conviction"
through a proceeding under § 2255 than by direct
appeal. Yick Man Mui v. United States, 614 F.3d
50, 53 (2d Cir. 2010) (citations and quotations
omitted). The statute thus allows relief "only for a
constitutional error, a lack of jurisdiction in the
sentencing court, or an error of law or fact that
constitutes 'a fundamental defect which
inherently results in a complete miscarriage of
justice.'" United States v. Bokun, 73 F.3d 8, 12 (2d
Cir. 1995) (quoting Hill v. United States, 368 U.S.
424, 428, 82 S. Ct. 468, 7 L. Ed. 2d 417 (1962)).
To demonstrate ineffective assistance of counsel
under Strickland v. Washington, 466 U.S. 668,
687, 104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984), a
defendant must show two things: (1) that his
counsel's performance was deficient, and (2) that
the deficient performance prejudiced his defense.
A court will deem performance deficient if "counsel
made errors so serious that counsel was not
functioning as the 'counsel' guaranteed by the
Sixth Amendment." Id. If there is a reasonable
probability that the outcome might have been
different because of a legal error, the defendant
has established prejudice and is entitled to relief.

9A
See Weaver v. Massachusetts, 137 S. Ct. 1899,
1910-11, 198 L. Ed. 2d 420 (2017). But an
ineffective assistance of counsel claim will fail if
the defendant fails to make a sufficient showing
under either of the Strickland prongs. Strickland,
466 U.S. at 697.
II. Rodriguez as a "complete defense"
Like defendant here, the defendant in Rodriguez
was convicted of violating 18 U.S.C. § 1344. The
statute provides that:
Whoever knowingly executes, or attempts to
execute, a scheme or artifice –
(1) to defraud a financial institution; or
(2) to obtain any of the moneys, funds, credits,
securities, or other properties owned by, or under
the custody or control of, a financial institution, by
means of false or fraudulent pretenses,
representations, or promises; shall be fined not
more than $1,000,000 or imprisoned not more than
30 years, or both.
The facts in Rodriguez are straightforward.
Rodriguez had a friend named Elcock who worked
at a company called Thomas Publishing. Without
authorization, Elcock drew checks on her
employer's account payable to Rodriguez.
Rodriguez cashed the checks through existing
accounts she had at Chemical Bank, sharing some
of the proceeds with Elcock. Rodriguez's account

10A
records at Chemical Bank listed Elcock as her
employer.
The Second Circuit reversed Rodriguez's
conviction under 18 U.S.C. § 1344 for having
defrauded Chemical Bank. The Court's holding
had two related grounds. First, to violate § 1344, a
defendant must "engage in ... a pattern or course
of conduct designed to deceive a federally
chartered or insured financial institution into
releasing property ... ." Rodriguez, 140 F.3d at 167
(quoting United States v. Stavroulakis, 952 F.2d
686, 694 (2d Cir. 1992)). The Court of Appeals held
that the scheme was not designed to defraud
Chemical Bank into releasing property. Nor could
it have lost any funds. It cashed the check in the
ordinary course of its business. As a holder in due
course, the Court held, Chemical Bank was not in
a position to be deceived. It was entitled to, and
presumably did, collect from the drawee bank. Nor
was there any exception to its holder in due course
status because Chemical Bank had no reason to
know of the Elcock-Rodriguez fraud. The only false
statement made to the Bank was Rodriguez's
misrepresentation of Elcock as her employer, but
that was immaterial as it had nothing to do with
facially valid checks.
For the same reason, the Court held that
Rodriguez could not have been intended to expose
Chemical Bank to actual or potential loss, a
required element of the statute, because, as a
holder in due course, Chemical Bank was never at

11A
risk. "[W]here a bank takes a check as a holder in
due course, under most circumstances the bank
cannot be victimized because the bank takes that
check free of any defenses or claims and is fully
entitled to the proceeds thereof." Rodriguez, 140
F.3d at 168 (footnote omitted). Although "a
defendant may be convicted of federal bank fraud
even where a bank is not the immediate victim of
a scheme to defraud," id., Rodriguez's intent, the
Court ruled, was to defraud Thomas Publishing,
not to expose Chemical Bank to any potential loss.
Rodriguez has some instructive value in the
instant case, but I hardly think it provides a
"complete defense" to the bank fraud charges
against defendant. For one thing, the positions of
Gateway and Chemical Bank have little in
common. As the Second Circuit noted, Chemical
Bank, as a result of its holder in due course status,
could not "be victimized because the bank takes
that check free of any defenses or claims and is
fully entitled to the proceeds thereof." Id. Chemical
Bank was a mere conduit in Rodriguez's
fraudulent scheme. In the instant case, the whole
scheme was about Gateway and, specifically,
deceiving its Board of Directors.
Gateway was under close scrutiny of its regulator,
OTS, and effectively directed, upon penalty of a
cease-and-desist order, to sell off its $16 million of
toxic assets (at least that is the value at which the
assets were booked). Defendant's response was not
to do what OTS wanted — an arms' length

12A
transaction that would sell off the toxic assets, no
doubt at a substantial write-down — but to concoct
a transaction that made it appear that Gateway
was doing what OTS wanted with virtually no
write-down, and getting additional capital in the
process. I can't imagine much worse for Gateway
than a calculated plan to deceive, and thereby
incur the wrath of its regulator when the same
toxic assets that were the subject of the
transaction were also the subject of regulatory
scrutiny. Defendant not only maintained the highrisk environment in which Gateway was operating
with too many toxic assets, but defendant
increased that risk by seeking to deceive
Gateway's regulator. See 12 U.S.C. § 1818(a)(2)
(permitting OTS to involuntary terminate a bank's
status as an insured depository institution if the
insured institution has engaged in unsafe or
unsound practices in conducting business); 12
C.F.R. 563.180(b)(1) (prohibiting any affiliated
person from knowingly making a false or
misleading statement to OTS). The deception was
not only the false conveyance of the toxic assets —
it was the failure to raise even a dollar of
additional capital through their sale, for the OTS
was insisting on both.
The regulator was not the only one defendant
sought to deceive. By not disclosing the round-trip
nature of transaction, defendant deliberately
deceived Gateway's Board of Directors, and by
doing that, deceived Gateway itself, as the Board
no doubt would have declined to participate in the

13A
circular
transaction.
That
conclusion
is
inescapable based on defendant's failure to
disclose the particulars, that is, there was no other
reason to disguise the transaction from the Board
except defendant's knowledge that the Board
would not approve the transaction if it knew of its
full details and origin.2
___________________________________
2

Defendant's recent contention that she actually
provided complete information to Gateway's
Board is belied by the record. At her guilty plea,
she stated, under oath, the following: "I did not
provide the complete information about these
[round-trip] transactions to Gateway's board
which ultimately had to approve them." Judge
Bianco then confirmed with defendant, "And the
scheme was done with the intent to defraud
Gateway Bank, you said you would disclose it to
the board, this was not done. Was that accurate,
Ms. Metaxas[,]" to which defendant responded in
the affirmative. Her statements at the plea
allocution carry a strong presumption of veracity,
see Blackledge v. Allison, 431 U.S. 63, 74, 97 S.
Ct. 1621, 52 L. Ed. 2d 136 (1977), and her
unequivocal admissions under oath contradict her
self-serving argument in the instant motion. See
Chen v. United States, No. 06-cv-7159, No. 02-cr1039, 2007 U.S. Dist. LEXIS 91130, 2007 WL
4358466 at *3 (S.D.N.Y. Dec. 7, 2007) (dismissing
an ineffective assistance of counsel claim when
the record clearly established that petitioner
entered into the plea agreement knowingly and

14A
This deception was the enabling factor in funds
flowing out of Gateway to Ideal. It is true that
because the money was round-tripped a day later,
Gateway was exposed for only a short time. But
Gateway was exposed, and the round-trip
transaction could have collapsed sooner than it
did. Ideal was defrauding its customers, shut down
less than a year later by the Government, and the
Ashley affiliates, as shown by their default on the
purchase price for the toxic assets once Ideal
defaulted on the loan, were dependent on Ideal for
the remaining funding to purchase the toxic
assets. The fact that the down payment actually
was paid through the Ashley affiliates a day later
does not mean that defendant engaged in a riskfree transaction. There was no way to know what
plan Ashley, or Ashley together with defendant,
could have created. Defendant's actions put
Gateway at a risk of losing the $3.64 million loan
to Ideal.
This ties into two of defendant's main arguments
as to why Rodriguez exonerates her. First, she
maintains that Gateway was fully not at risk
because it maintained title to the toxic assets and,
as shown by the Ashely Associates' default, always
___________________________________
2

voluntarily because petitioner's sworn statements
at his guilty plea directly contradicted his more
recent self-serving allegations).

15A
had the ability to resell them upon a default. The
argument, however, is both myopic and ironic.
Defendant can hardly contend that it would be a
good thing for Gateway if the transaction failed,
because the entire point of the "sale" was to get the
toxic assets off Gateway's books. It would have left
Gateway in full non-compliance with OTS's
directive, and as discussed above, Gateway would
also have had to explain why it attempted to
deceive OTS. And having the toxic assets serve as
security does not address the fact that $3.64
million went out of Gateway's door to Ideal.
Defendant also relies on the fact that after the
Ashley affiliates' default, Gateway ended up
selling the assets for somewhat more than the
single offer it had received prior to the round-trip
transaction, contending that it shows the lack of
potential loss to Gateway. But the final result does
not determine the potential for loss. There was no
way at the time to know the pricing of a real arms'
length sale would yield, nor does it change the fact
that defendant made Gateway carry a phony
transaction on its books. That put Gateway at
financial risk.
Defendant's second, related argument is that she
did not intend to cause Gateway any loss, and in
fact, she did not. This is a subjective intent
argument. She notes that as a major shareholder
of Gateway, it would have been self-injurious for
her to plan a transaction that would hurt
Gateway. She also notes that Judge Bianco found

16A
no actual loss at sentencing, albeit for Guidelines
and restitution purposes, not on the question of
criminal liability (which is different). The roundtrip transaction, she contends, had a back-up
option in case of failure that would, and did, leave
Gateway in no worse a position than it occupied
before the transaction.
This argument also reflects an overly broad
reading of Rodriguez. Section 1344 covers more
than just embezzlement. Rodriguez makes it clear
that if a defendant intends to take an action that
exposes a federally-insured bank to a risk of loss,
and the defendant deceives the institution in
taking that action, then the elements of the statute
have been met. The intent that is required when
dealing with a bank's assets is the intent to take
the deceptive action that causes the exposure, not
the intent for the bank to actually sustain a loss.
I accept defendant's contention that she did not
want to "hurt" Gateway — all she wanted was
more time to get the toxic assets off its books,
substituting whatever capital Gateway could raise
in their place. But many fraudsters have a
subjective intent in committing deceptive acts that
is equally pristine. They rationalize that if they
just had a little more time, then, for example, the
market would turn around; or economic conditions
would improve and create more sales; or financing
would come through to solve the problem created
by the misconduct. I suspect that Charles Ponzi
sincerely believed that if people would have just

17A
kept buying his coupons, everyone would have
kept making money. But if the scheme created the
potential for loss through intentional deceptive
acts to a bank's Board of Directors, that's a bank
fraud. As discussed above, defendant put Gateway
at risk, both by transferring $3.64 million out that
might not have come back, and by creating a phony
balance sheet, especially at a time when it was
under more than ordinary regulatory scrutiny by
an agency with various means of enforcement at
its disposal.
There is a related reason why defendant's
subjective intent could not give her a complete
defense under Rodriguez. Chemical Bank was
such a bit player in Rodriguez that the Second
Circuit had no occasion to distinguish between
§1344(1) and § 1344(2), treating them in pari
materia. Rodriguez, 140 F.3d at 167 n.2. Chemical
Bank was not deceived, and because Rodriguez did
not intend to deceive Chemical Bank, neither
clause of § 1344 applied.
But seven months prior to defendant's guilty plea
in this case, the Supreme Court decided Loughrin
v. United States, 573 U.S. 351, 134 S. Ct. 2384, 189
L. Ed. 2d 411 (2014). That case confirmed the prior
view of most Circuits that although intent is an
element of a violation of § 1344(1), it is not an
element of § 1344(2). The Court reasoned, in part:
Loughrin's construction of § 1344(2) [to require
intent] becomes ... untenable in light of the rest of
the bank fraud statute. That is because the first

18A
clause of § 1344, as all agree, includes the
requirement that a defendant intend to "defraud a
financial institution"; indeed, that is § 1344(1)'s
whole sum and substance. To read the next clause,
following the word "or," as somehow repeating that
requirement, even while using different words, is
to disregard what "or" customarily means. ...
Loughrin would have us construe the two entirely
distinct statutory phrases that the word "or" joins
as containing an identical element. And in doing
so, his interpretation would make § 1344's second
clause a mere subset of its first: If, that is, §
1344(2) implicitly required intent to defraud a
bank, it would apply only to conduct already
falling within § 1344(1). Loughrin's construction
thus effectively reads "or" to mean "including" - a
definition foreign to any dictionary we know of.
573 U.S. at 357 (citations omitted).
The indictment in the instant case charged
defendant with a violation of both § 1344(1) and §
1344(2). Her argument that Rodriguez gave her a
complete defense is precluded by Loughrin. Her
allocution confirmed her guilt as to both clauses.
She willfully deceived the Board and OTS, and she
sent $3.64 million out of the door without the
Board knowing the full reasons why.
Applying Strickland to the state of the law at the
time, it is clear that defendant's counsel did
nothing objectively unreasonable in advising her
to plead guilty. Indeed, a stronger argument could
be made that it would have been objectively

19A
unreasonable to give her the contrary advice that
going to trial was likely to result in her
exoneration.
III. Defense counsel's discussions with defendant
about the potential defense
Notwithstanding my conclusion that Rodriguez
did not provide defendant with a sure-fire defense,
I will assume that her counsel had the obligation
to at least discuss with her the impact of her
expressed subjective intent not to harm Gateway.
The subject of the hearing before me was whether
counsel had adequately discharged that
obligation. The testimony from defendant and her
former attorney conflicted in answering that
question.
Defendant testified that although she repeatedly
told her attorneys that she never intended to harm
Gateway, they did not discuss with her mounting
a defense based on that lack of intent. The only
defense her attorneys addressed with defendant,
according to her testimony, was to the perjury
charge. After the motion to dismiss that charge
failed, and the case approached trial, the Cooley
attorneys told her the case was "indefensible" and
urged her to plead guilty.
I find much more credible the contrary testimony
at the hearing of Laura Birger. At the outset, I
note that although Ms. Birger declined to describe
herself as an expert on bank fraud, she was far

20A
from a novice in the area and she knew all about
Rodriguez and its progeny. Prior to joining Cooley,
she had been a federal prosecutor in the Southern
District of New York (at the time of the hearing,
she had returned there from Cooley and was Chief
of the Criminal Division). As she testified":
I had prosecuted it [bank fraud] many times and I
had worked on the defense side with many cases
that raised the specter of that kind of charge. But
I was also aware of the Rodriguez line of cases and
I thought extensively about whether there was any
avenue to exploit [for defendant] that particular
area of bank fraud law that existed in the Second
Circuit with respect to the facts that were at issue
in this case. ...
I actually had encountered it when I was a fairly
young prosecutor in the U.S. Attorney's Office in
one of my cases, and I thought it was an unusual
area of the law. And I encountered it periodically
after that, including in cases that I supervised
where I had to advise AUSAs on whether bank
fraud was the right charge to bring on particular
facts or whether it was, perhaps, safer to go with
wire fraud or a mail fraud charge. So I was aware
of the area of law and I had a little bit of an
interest, so I followed the cases that came out that
furthered the Rodriguez line of cases. You know,
one came out every few years.
The Government also introduced into evidence a
case note that Ms. Birger had published in

21A
January 2013 on United States v. Nkansah, 699
F.3d 743 (2d Cir. 2012). Nkansah was in many
ways similar to Rodriguez. Thieves had opened
bank accounts to deposit the proceeds of their
theft; the Second Circuit held that, like Rodriguez,
the bank was not an intended victim and could not
have suffered a loss, so the defendant's fraud was
not federal bank fraud. In her case note, Ms.
Birger focused on Judge Lynch's concurrence in
Nkansah, in which he expressed the view that
although precedent required dismissal, the
precedent was ill-considered. Ms. Birger described
the concurrence this way:
[]Judge Gerard E. Lynch wrote separately in a
vigorous concurrence, conceding that reversal by
the Second Circuit's prior holdings [was required],
but heatedly arguing that the court's
interpretation was "predicated on an unwarranted
and unwise judicial injection of an offense element
that has no basis in the statute enacted by
Congress." The concurrence pointed out that the
requirement that the defendant specifically intend
to harm the bank that he deceived into paying him
is nowhere to be found in the statutory language
itself. And it also observed that it is unsurprising
that proof of specific intent to harm the bank was
lacking in Nkansah, because, as with many bankfraud schemes, Nkansah's intent was to profit by
obtaining money from the bank rather than to
inflict loss on any particular victim.

22A
As noted in the concurrence, there has been much
litigation about the intent requirement of the bank
fraud statute, and the federal courts do not agree
about its interpretation. Some circuits, like the
Second Circuit, hold that an intent to harm the
bank (or at least expose it to risk) is required. See,
e.g., United States v. Odiodio, 244 F.3d 398, 401
(5th Cir. 2001); United States v. Davis, 989 F.2d
244, 246-47 (7th Cir. 1993). One court has held
that an intent to defraud (but not to harm) is
required. United States v. Kenrick, 221 F.3d 19,
26-29 (1st Cir. 2000). Another has required intent
to victimize (where the bank is the target of
deception) but not an intent to harm. United
States v. Leahy, 445 F.3d 634, 647 (3d Cir. 2006).
The Sixth Circuit focused more on the fraud
element, and held that it is sufficient if in the
course of committing fraud on someone (not
necessarily the bank) a bank is caused to transfer
funds under its control. United States v. Everett,
270 F.3d 986, 990 n.3 (6th Cir. 2001).
Obviously, the precise parameters of the intent
requirement are in dispute. In fact, the
concurrence in Nkansah directly invites the U.S.
Supreme Court to resolve the circuit conflict and
reject the Second Circuit's rule.
Until a resolution, the application of the bankfraud statute in any particular case is debatable,
even when the conduct is undeniably criminal. The
lack of clarity leaves room for defendants to avoid

23A
bank-fraud charges even when they utilize banks
in fraud schemes.
It therefore seems clear that defendant in the
instant case had the right lawyer.
Defendant claims, however, that Ms. Birger never
discussed this issue with her. Once again, I find
Ms. Birger's contrary testimony on that issue
compelling:
Q. And do you recall having conversations with
Ms. Metaxas where she expressed to you, but I
didn't intend to hurt the bank?
A. Yes, I do. And we talked about that all the time
and we fully believed that. Any -- any defense at a
trial would have involved us saying to a jury that
she was devoted to the bank and the bank was
facing very difficult times and she wanted to help
the bank. And she had no financial motive, we
would have argued, to hurt the bank. But bank law
-- bank fraud law doesn't require that a defendant
have as his or her purpose to hurt the bank. It
requires that there be some scheme to defraud the
bank, and at that time in the Second Circuit that
the bank be exposed to some risk of loss. ...
Q. So was the elements of the crime something
that was being woven into the defense you planned
to present if the case went to trial?
A. Yes, of course it was.
Q. And did you discuss that with Ms. Metaxas?
A. We did many, many, many times.

24A
Q. And every time she -- and I assume many times
she said, "But I didn't intend to hurt the bank?"
A. She did say that. Over and over. And she would
say "how can they say I defrauded a bank?" You
know, "I didn't want to do that. I didn't want the
bank to get hurt."
Q. And did you in response explain to her what the
elements or what the Government needed to show?
A. We did. We did. We talked with her a lot about
the different ways in which loss was and wasn't
relevant at different stages of the proceeding.
I find Ms. Birger's testimony to be fully credible in
light of her demeanor and the details of her
recollection. In addition, I simply cannot conclude
that the Chief of the Criminal Division of the U.S.
Attorneys' Office for the Southern District of New
York was making this up. In contrast, although I
do not find that defendant was dissembling in her
testimony, I think she was so focused on her belief
that her scheme would ultimately not hurt
Gateway that over time, her recollection of the
advice she received from her former attorneys has
likely been suppressed by her belief in her own
lack of intent. The advice that she has received
from her current attorneys — that Rodriguez
would have provided a complete defense — has
cemented her view.
In sum, my conclusion is that defendant's
attorneys at her guilty plea were fully
knowledgeable about the requirements to prove
bank fraud and accurately advised defendant of

25A
those elements. There was no objective
unreasonableness in counsel's recommendation
that she plead guilty, and she did so voluntarily
and knowingly.
IV. The perjury count
Barely mentioned in defendant's opening brief in
her § 2255 motion is the fact that under her plea
agreement, she did not have to plead guilty to
perjury, which, had she gone to trial and been
convicted, carried a five-year statutory maximum
sentence. See 18 U.S.C. § 1621(2). In a footnote,
she reprises the argument that her former
attorneys made to Judge Bianco, namely, that the
question OTS asked her at her deposition was too
ambiguous to support a perjury charge. Judge
Bianco rejected that argument and I concur. At the
very least, Count Three of the indictment
presented a factual issue for the jury at which
defendant would have faced substantial risk.
That is because defendant did not have the better
of that factual argument. She outright denied
knowing that the Ashley affiliates were using
Gateway's money. "No, sir," was not ambiguous. It
was false. Her following, unsolicited remark that
"one of the things we did not do is verify source of
down-payment", would most likely be regarded as
an effort at misdirection. She was not asked if "we
verified" the source of the funds; she was asked if
"she knew" that the funds had come from the
Ashley affiliates.

26A
The perjury charge is important because
defendant maintains that she would have chanced
it (gone to trial) had she received accurate advice
on bank fraud law. I have already found that
defendant was adequately advised about the state
of bank fraud law. If plaintiff was weighing the
risk of going to trial despite this advice, the
possibility of an additional perjury conviction
would have further compelled her towards a guilty
plea on one of the bank fraud counts. I therefore
reject her assertion that she would have gone to
trial on two highly risky bank fraud counts with
the additional high risk of a perjury conviction.
CONCLUSION
Defendant's motion [87] pursuant to 28 U.S.C. §
2255 is denied. A certificate of appealability shall
not issue as defendant has failed to demonstrate a
substantial constitutional question. See 28 U.S.C.
§ 2253(c).
SO ORDERED.
Digitally signed by
Brian M. Cogan
U.S.D.J.
Dated: Brooklyn, New York
March 26, 2020

27A
APPENDIX B
United States Court of Appeals
FOR THE
SECOND CIRCUIT
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40
Foley Square, in the City of New York, on the 17ᵗʰ
day of September, two thousand twenty.
Present: Dennis Jacobs, Gerard E. Lynch, Richard
J. Sullivan, Circuit Judges.
Poppi Metaxas,
Petitioner-Appellant,
v.

20-1398

United States of America,
Respondent-Appellee.
Appellant
moves
for
a
certificate
of
appealability. Upon due consideration, it is
hereby ORDERED that the motion is DENIED
and the appeal is DISMISSED because Appellant
has not “made a substantial showing of the denial
of a constitutional right.” 28 U.S.C. § 2253(c); see
also Miller-El v. Cockrell, 537 U.S. 322, 327 (2003).

